NO.

- ISA*

Supreme Court, U.S.
FILED

APR 1 7 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

L'AWRENCE DOBY Wit1 SON,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEAL'S
FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

L'awrence Doby Wilson
Reg. No. 30591-066
FCI FORT DIX
P.O. BOX 2000
Joint Base MDL1, N.J. 08640
Pro Se

QUESTION(S) PRESENTED
1.

Whether The Court Of Appeals In A Coram Nobis Proceeding

Denies A Criminal Defendant Due Process Under The Fifth Amendment To
The United States Constitution By Its Refusal To Use Equitable Tolling
To Permit Said Defendant To File For Relief Once .It Concludes That
Defendant Is "Actually Innocent" Of The Crime Convicted Of?
2.

Whether The Delayed Filing Of A Petition For Coram Nobis

Relief Is Justified By The Fact That The Court Of Appeals Opinion
Showing That The Petitioner Is "Actually Innocent" Of The Crime Was
Decided After Petitioner Filed His Initial Petition For Coram Nobis
Relief On Grounds Of "Actual Innocence;" And, If So, Does A District
Court Abuse Its Discretion By Denying Coram Nobis Relief On Grounds
Of Unjustifiable Delay When Petitioner Bases His Second Coram Nobis
Petition On Said Circuit Decision Which Shows That He Is "Actually
Innocent" Of The Crime?

r

I'IST OF PARTIES
All parties appear in the caption of the case on the cover page.

TABL'E OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL1 AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

9
15

CONCLUSION

INDEX OF APPENDICES

A

OPINION OF THE COURT OF APPEAL'S

B

DISTRICT COURT. ORDER AND JUDGMENT APPEALED

C

ORDER DENYING .REHEARING

D

COURT OF APPEAL'S DENYING Sec 2255 Appeal in 1990

E

COURT OF APPEAL'S DENYING Sec. 2255 Appeal in 1994

F

ORDER DENYING INITIAL CORAM NOBIS PETITION

‘

TABL'E OF AUTHORITIES
Cases:
Argersinger v. Hamlin, 407 U.S. 25 (1972)... .
Avery v. Alabama, 308 U.S. 444 (1940)................
Coleman v. Thompson, 501 U.S. 722 (1991 )..........
Cuyler v. Sullivan, 446 U.S.335 (1980)..............
Engle v. Isaac, 456 U.S. 107 (1982),................
Evitts v. Uucey, 469 U.S. 387 (1985)..................
Gideon v. Wainright, 372 U.S. 335 (1963).. . •
Herrera v. Collins, 506 U-S- 390 (1993)............
Holland v. Florida, 560 U.S. 631 (2010).
Johnson v. Zerbst, 304 U.S. 458 (1938). .
Kuhlmann v. Wilson. 477 U.S. 436 (1986). . Maine v. Moulton, 474 U-S. 159 (1985)- • .
McMann v. Richardson. 397 U-S- 759 (1970). ...
McQuiggin v. Perkins, 569 U.S. 303 (2013). • ••
Powell v. Alabama, 287 U-S. 45 (1932). - .
Strickland v. Washington, 466 U.S- 668 (1985).
Telink, Inc, v. United States, 24 F.3d 42
(9th Cir 20041. • • - - 7.................................. ..........
United _.St at e s _ vA s h. 413 U.S. 300 (1973)--- .
United States v. Cronic, 466 U-S 648 (1984)..

PAGE

• •

• •

• •

• •

•

.•

...

13
14
10
14
10
14
13
10
11
13
10
13
14
11
13,14
14
10
13
12,13,
14

United States v. Uawrence D. Wilson,

9lV5'"F“2TT58rTfth'”Cir'r''i"990X:'7. ”7'"' ......___

.

United_ States v„_tlawrence Dob^ Wilson,
45”F~3dT’43*8 (9th Cir7"T99477". .777777 .7 .............
United States v_._ Uazarenko. 564 F- 3d 1026
("oth'-Cir 7'"200'3T. 7777......................... ..........
United_States v. Starr Renee_ Harris..L
724“F.3d""l 452”(9th" c7r7"l 984f77. 777
United States v- Wilson, 27 Fed- Appx. 852
'("9th" Ci r7™200TT7 7 777.7'" ................ ..
. .. .

i

4,5
6
7,8,9,
12 13,
15

• «

5
6

TABL'E OF AUTHORITIES CONTINUED
PAGE

STATUTES:

5
4,9,12,
14,15
5,6
2

18, U.S.C., § 2113(c)
18, U.S.C., § 2314...
18, U.S.C., § 3161(c).
28, U.S.C., § 1254(1).
28, U.S.C., § 1912....

5
6,7,8,9
15

28, U.S.C., § 2255-•••
RUL'ES:

12

Rule 29, F. R. Crim. Proc..
Fed. R. App. Proc. 38..........
Rule 60(b), F. R. Civ. Proc

5
7

CONSTITUTIONAL1 PROVISIONS:
Fifth Amendment..........
Sixth Amendment..........

3,8,15
3,11

ii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR -WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.

OPINIONS BEL'OW

The Opinion of the United States Court of Appeals appears at
Appendix "A" to the petition and is unpublished.

The Opinion of the United States District Court appears at
Appendix "B" to the petition and is unpublished.

1

JURISDICTION
The date on which the United States Court of Appeals decided
my case was October 30, 2020.
A timely petition for rehearing was denied by the United
States Court of Appeals on February 4, 2021, and a copy of the
Order denying rehearing appears at Appendix "C."
The Jurisdiction of this Court is invoked under 28, U.S.C., §
1254(1).

2

CONSTITUTIONAL' AND STATUTORY PROVISIONS INVOLVED

AMENDMENT V

No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger;

nor

shall any person be subject for the same offense to be
twice put in.jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.

AMENDMENT VI
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted
with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.

3

STATEMENT OF THE CASE
Lawrence Doby Wilson("Petitioner") was convicted in the U.S.
District Court of Oregon of interstate transportation of money
taken by fraud from the State of Oregon to Pennsylvania in
violation of 18, U.S.C., § 2314. Petitioner was involved in a
financing scheme related to the purchase of the Aladdin Hotel in
Uas Vegas, Nevada. As a result, Petitioner was indicted for wire
fraud, mail fraud, and taking those fraudulently obtained monies
in interstate transportation, in violation of 18, U.S.C., § 2314.
Petitioner pled not guilty to all three charges. He was provided
court-appointed counsel, Jeffrey Rogers, Esq.,.to prepare a
defense against the charges. Prior to trial, the Government
dismissed the wire fraud charge, and the jury acquitted him of the
mail fraud charge. Petitioner was sentenced to seven years in
federal prison. He appealed. The Court of Appeals affirmed his
conviction and sentence; consequently, he served the seven-year
prison term to expiration.
From the start, and over the next forty(40) years, Petitioner
launched a full-scale attack against what he deemed was an unfair
conviction and sentence. Petitioner filed his first motion for
habeas relief in 1982, and his second less than a year later.
Petitioner raised a variety of issues including complaints about
the jury selection process and the application of an unfair
sentencing enhancement, along with accusations of ineffective
assistance of counsel at the trial level and appellate counsel,
and prosecutorial and judicial misconduct. The District Court
held one(1) evidentiary hearing, dismissed both petitions and was
affirmed on appeal.
In a determined effort to obtain justice, Petitioner filed
two more habeas motions over a three-month period in late 1987 and
early 1988
See, United States v. Pawrence D. Wilson, 915 F.2d
1582 (9th Cir. 1990) . The issues raised in these proceedings were
denial of access to grand jury ministerial records to prove
irregularity in the jury selection process; ineffective assistance
of appellate counsel; denial of the right to review transcripts;
and use of perjured testimony of the prosecutor. Appendix "D,"atp.1.
4

On June 9j 1988, the Magistrate recommended dismissal of both
petitions. The District Court adopted the Magistrate's findings,
dismissed the petitions, and denied Petitioner's motion for
summary judgment. Petitioner filed a timely notice of appeal
which was denied, The Court of Appeals denied Petitioner’s appeal
with this caveat:
Although Wilson actually denominated these claims as claims of
outrageous government misconduct and denial of due process, they
were, in substance, nothing more than a repeat performance of
Wilson's claims in his first two petitions; and
Wilson has shown nothing to indicate that the interest of justice
would be served by having us reexamine those issues. Wilson has
already had a full opportunity to present his claims to the
district court and to this court. No purpose other than harassment
can be served by his repeated attempts to obtain a decision more
congenial to his way of thinking. If he persists in that course
of conduct, we will not hesitate to impose appropriate sanctions
upon him. See 28 U.S.C. $ 1912: Fed.R.Add.P. 58
See, United States v. Pawrence D. Wilson, 915 F.2d 1582 (9th Cir.
1990), at page 2, Footnote 1 and last paragraph. See, Appendix "D."
Three years after that warning, Petitioner filed his fourth
habeas motion. That motion was filed predicated upon the Ninth
Circuit Court of Appeals precedential holding in united States v.
Starr Renee Harris, 724 F.2d 1452 (9th Cir. 1984), wherein, the
Court held that:
Defendant was involved with a co-defendant in a scheme where
bearer bonds were stolen from a bank and defendant deposited them
into her account, then tried to withdraw the funds. Defendant was
initially charged with aiding and abetting the co-defendant in
embezzlement. A superseding indictment charged defendant with
possession of property known to be stolen from a bank in violation
of 18 U.S.C.S. § 2113(c). At the date scheduled for trial on the
original charges, the district court dismissed that indictment.
The district court denied defendant's motion to set a 30-day trial
date on the new indictment under the Speedy Trial Act, 18 U.S.C.S.
§ 3161 et seq. Defendant was tried and found guilty of violating
18 U.S.C.S. § 2113(c). The court found that the district court
erred in denying defendant's motion. Under 18 U.S.C.S. § 3161(c),
defendant was entitled to a 30-day minimum trial date on the super
seding indictment in order, for defendant to prepare a defense. The
court reversed defendant's conviction, holding that where defendant
was tried immediately after the arraignment on the superseding
indictment, her rights under, the § 3161(c)(2) were violated.

5

Petitioner predicated his fourth habeas petition on the Court of
Appeals holding because that holding parallels a factual scenario
in his case: 1) Petitioner was tried on a superseding indictment
which was returned two(2) days before his trial was scheduled to
begin, 2) Petitioner was not advised of his Speedy Trial rights
by either counsel or the district court, 3) Petitioner did not
"waive" his "30-day" indictment to trial right under 18, U.S.C.,
§ 3161(c)(2); and 4) the district court commenced his trial
within two(2) days after return of the superseding indictment.
The Petitioner focused his habeas strategy on the fact that his
speedy trial rights had been violated as opposed to the fact that
his Attorney had been ineffective by his failure to make a motion
to dismiss due to violation of the Speedy Trial Act. Under the
Act, § 3161(c)(2)(Supp. Ill 1979)» "[Wilson] could not be
compelled to commence trial in less than 30 days from the date of
the second arraignment absent an express waiver." The district
court denied relief and in affirming the district court, the
Court of Appeals held, "The Speedy Trial Act 'does not require
that the 30-day trial preparation period of [18 U.S.C.] be
restarted upon the filing of a superseding indictment, * n See,
united States v. Uawrence Doby Wilson, 45 F.3d 438 (9th Cir.
1994). [Appendix "E," attached]. That same Court ruled that
Petitioner's "2255 challenged] his convictions for wire fraud,
mail fraud, and transporting fraudulently obtained money in
interstate commerce." Id. Petitioner later discovered that the
Court of Appeals had no District Court "record" available to
inform it that Petitioner was acquitted of "mail fraud," and the
Government moved to dismiss the "wire fraud" charge. The "record"
was unavailable because it was allegedly "lost" or "destroyed"
enroute to the Federal Archive Center. Thus, Petitioner was
deprived of the necessary "record" to dispute his unlawful
conviction and sentence. On rehearing, the panel refused to
change its Judgment as to the facts or governing law in his case.
For instance, the panel claimed that, "Wilson fails to show that
he asked for a continuance or that prejudice resulted from the
filing of the superseding indictment. Thus, bringing him to
trial less than 30 days after the filing of the superseding
6

indictment did not violate the Speedy Trial Act." Id. When
Petitioner argued that he was "actually innocent" and that his
counsel's "ineffective assistance" explained why objections were not
made, the panel refused to hear his claim because he had not made
that claim in his section 2255 motion. Id.
In mid-2000, Petitioner filed a motion under Federal Rule of
Civil Procedure 60(b) asking for reconsideration of the claims
raised in his fourth habeas motion. At that point, Petitioner's
trial record had been mysteriously lost in the mail on its way to
the Federal Records Center and the Clerk's "Docket Entries" were
truncated such that the history of any prior proceedings in
Petitioner's case before August 16, 1993 were also "lost or
destroyed. " The Clerk's Docket Entries begin at Docket Entry #105Additionally, the names of all Official Players: the Judge,
Prosecutors
lawyers, Deputy Clerks, and Court Reporters prior to
August 16, 1993, have, also, been "lost or destroyed" in the case.
In light of this development, Petitioner claimed that the
destruction created an extraordinary circumstance allowing him to
seek relief under Rule 60(b). The District Court found that
Petitioner had "procedurally" defaulted his ineffective assistance
claim by not raising it in his Fourth habeas petition. The Court of
Appeals affirmed the decision of the District Court. See, United
States v. Wilson, 27 Fed. Appx. 852, 853 (9th Cir. 2001).
•9

)

Petitioner filed his first "petition for coram nobis" in July
2003- In his petition, Petitioner alleged fault with his indictment
and, also, claimed that, "the jury verdict was inconsistent and
cannot be allowed to stand." His argument was that he could not be
guilty of transporting "fraudulent money" if the underlying fraud
charges were not sustained. The District Court denied his petition
ruling that, "he has ... raised similar claims in his prior habeas
proceedings and they were rejected .. • ) " and "Wilson failed to
identify any'fundamental error. * t» Petitioner appealed, but the
Court of Appeals affirmed the District Court.
On October 15, 2018, Wilson filed his Second Petition for a
Writ of Error Coram Nobis, in part, because in 2009• the Ninth
Circuit held in United States v. Paklarenko, 564 F.3d 1026, 1040
7

(9th Cir. 2009) that a conviction for interstate transportation of
fraudulent proceeds cannot be sustained in the absence of
fraudulently obtained money. Id^, at 1040- In denying his first
coram nobis .peti tion, the district court noted that "defendant fails
to identify any 'funadamental' error" warranting coram nobis relief.
See, Opinion, at page 3- (Appendix "F"). Now, the Ninth Circuit
Court of Appeals has identified a "fundamental error warranting
coram nobis relief" in Petitioner's case
"actual innocence" of the
crime he was convicted of
but the District Court wrote in its
Order, "Defendant's claims could have been raised in a prior § 2255
proceeding." Appendix "B, " at page 2. Ironically, on Appeal of the
District Court's latest Order denying Petitioner coram nobis relief,
the Government argued to the Court of Appeals:
"Ihe crux of his current arguient is that the jury's verdict is internally and
fatally inxnsistosnt because he could not be guilty of transporting fraudulently
obtained funds if he did not obtain these funds by fraud in the first place. He
raised this inconsistency issue in his FIRST Cbram Nobis PstjUcn." (See, Gcvemmsnt Brief, at page 7) •
The Government's position amply demonstrates Petitioner's claim that
he has been denied his fundamental right to Due Process under the
United States Constitution's Fifth Amendment because the District
Court routinely initially overlooks Petitioner’s "ineffective
assistance of counsel" and "actual innocence" claims then the Court
of Appeals affirms the District Court. This is a typical case of a
criminal defendant who is wrongfully convicted of a crime that he did
not commit, the Government and the Courts know he is "actually factually and legally - innocent," yet the Courts take the position,
that, "none of the reasons Wilson proffers adequately justifies his
delay in presenting his claims." Appendix "A," at page 2.

8

reasons for granting the writ
In his latest Coram Nobis proceeding, the Government and the
District Court concede that Petitioner is "actually innocent" of
having transported "fraudulently" obtained proceeds in interstate
commerce, in violation of 18, U.S.C., § 2314. This concession comes
because Petitioner cited to a Ninth Circuit "precedential case"
decided after he filed his "initial" coram nobis petition, wherein,
the Ninth Circuit ruled that, "[aJ conviction for interstate
transportation of fraudulent proceeds cannot be sustained in the
absence of fraudulently obtained money." Id., at 1040. Petitioner
proferred that since the Ninth Circuit Court of Appeals reversed the
conviction of Uazarenko, supra, at 1040, that? he is "actually
innocent" of transporting fraudulent proceeds, his conviction should,
also, be reversed or vacated, Additionally, the Government concedes
that Petitioner raised his "actual innocence" claim in his "initial"
coram nobis petition. It denies Petitioner Due Process under the
Fifth Amendment to the United States Constitution for the courts
below to now hold that, "[Petitioner's] claims could have been raised
in a prior § 2255 proceeding." He did, in fact, raise the very same
issue of being "actually innocent" but for counsel's "ineffective
assistance" in prior § 2255 proceedings. If the "entire, record" of
this criminal proceeding in the District of Oregon had not been
mysteriously lost or destroyed, he could show that counsel did not
"timely" move for an acquittal of the "interstate transportation of
fraudulently obtained proceeds charge" when the jury acquitted
Petitioner of "fraud." Sadly, even the Criminal Docket Sheet for
this case has been manipulated such that it cannot testify to
counsel's ineffectiveness. Petitioner is not now "actually innocent"
because of some statutorial change in the law, or a new court
decision declaring Petitioner's conduct as "non-criminal." No, in
this case, the Petitioner is and always was "actually innocent" both
"factually and legally," of transporting fraudulent proceeds in
interstate commerce. The District Court simply refuses to
acknowledge that it committed an egregious err in this case. The
Court of Appeals, also, acknowledges that Petitioner is "actually
innocent" but in affirming the District Court it reasoned as follows:
9

"[Petitioner] contends that his 1980 conviction for interstate transport­
ation of fraudulently obtained funds must be vacated because: he is
actually innocent of that offense, he received ineffective assistance
of counsel, and his due process rights were violated when an inaccurate
record was provided to [Court of Appeals] in a prior appeal. To Obtain
relief on these claims, MPetitioner] must show, among other requirements
that 'valid reasons exist for not attacking the conviction earlier.' • • •
We agree with the district court that none of the reasons [Petitioner]
proffers adequately justifies his delay in presenting his claims."
Appendix "A," at page 2. It appears that the Court of Appeals' has
taken a position in this case that even if a miscarriage of justice
has occurred, it is excusable because "none of the reasons
[Petitioner] proffers adequately justifies his delay in presenting
his claims." The United States Supreme Court has recognized,
however, that "the cause and prejudice standard will be met in those
cases where review of a state prisoner's claim is necessary to
correct 'a fundamental miscarriage of justice. «i» Coleman v.
Thompson, 501 U.S. 722 111 S.Ct. 2546, 115 l1.Ed.2d 640
(1991)(quoting Engle v. Isaac, 456 U.S. 107, 135, 102 S.Ct. 1558,
1572-73, 71 L(.Ed.2d 783 (1982)). "The fundamental miscarriage of
justice exception is available 'only where the prisoner supplements
his constitutional claim with a colorable showing of factual
innocence. • IF Herrera v. Collins, 506 U.S. 390, 404, 113 S.Ct. 853,
862, 122 L(.Ed .2d 203 (1993) (emphasis in original)(quoting Kuhlmann
v. Wilson, 477 U.S. 436, 454, 106 S.Ct. 2616, 2627, 91 l1.Ed.2d 2364
(1986)). Thus, t» » actual innocence' is not itself a constitutional
, .
,
petitioner
claim, but instead a gateway through which a habeasAmust pass to
have his otherwise barred constitutional claim (ineffective
assistance of counsel and denial of due process) considered on the
merits." Herrera, 506 U.S. at 404. 113 S.Ct. at 862. Further, in
order to demonstrate a fundamental miscarriage of justice, a habeas
petitioner must "establish by clear and convincing evidence that but
for the constitutional error, no reasonable factfinder would have
found [him] guilty of the underlying offense." While this is the
manner in which a habeas corpus petition is analyzed, petitions for
Writ of Coram Nobis are analyzed in the same manner as Section 2255
habeas corpus petitions, with the major difference being that, in a
petition for writ of coram nobis, the petitioner is no longer in
custody. Telink, Inc, v. United States, 24 F-3d 42, 45 (9th Cir.
2004).
10

The Court of Appeals does not specifiy what "reasons" it agrees
with the District Court does not justify the delay by Petitioner in
seeking relief earlier. However, it is obvious that the courts
below are not concerned that Petitioner may have not only been
denied due process, but his Sixth Amendment Right to effective
assistance of counsel, as well. The fact that Petitioner is
"actually innocent" both "factually and legally" should be of
paramount importance to either court. What justice does a court of
law derive from knowingly convicting an innocent person? In
McQuiggin v. Perkins, the United States Supreme Court found that,
"Actual innocence if proved, held to be gateway through which
state prisoner petitioning for federal habeas corpus relief might
pass, regardless of whether impeded by procedural bar or expiration
of 28, U.S.C.S., § 2244(d)(1)'s limitations periods." 569 U.S. 383,
133 S.Ct. 1924. 185 L'.Ed.2d 1019 (2013)- Before
, the
Supreme Court held in Holland v. Florida, that "equitable tolling"
could be a gateway for an "untimely" habeas petitioner "only if he
shows: (1) that he has been pursuing his rights diligently, and (2)
that some extraordinary circumstances stood in his way and
prevented timely filing." 560 U.S. 631, 130 S.Ct. 2549, 177 L‘.Ed.2d
130 (2010). Here, it is undisputed that Petitioner has been in
diligent pursuit of of his rights. What is "extraordinary and
prevented Petitioner from more aggressively pursuing his "actual
innocence" claim is the fact that the courts below have unfairly
denied his past just claims, to wit:

D

He has consistently claimed denial of effective counsel;

2)
He has consistently claimed that counsel did not assert his
acquittal of the underlying fraud charges; and

3)

The District Court has consistently overlooked the fact that
there is no underlying "fraud" justifying Petitioner’s conviction
of interstate transportation of fraudulent proceeds.
Moreover, the reasons petitioner gave to the District Court for not
filing his Coram Nobis Petition earlier justified tolling any
limitations barring his present petition:
11

1. Petitioner profferred to the District Court that the Court of
Appeals' holding in United States v. Lazarenko, 564 F-3d 1026, 1040
(9th Cir. 2009) clearly demonstrated that its previous decision in
2003 denying Petitioner Coram Nobis relief should be reversed for
the following reasons, to wit:
a) t'azarenko emphasized Petitioner's historical pleading that he
is "actually innocent" of transporting $30,000 taken by Fraud
because he was not convicted of the alleged Fraud Charges;
b) In Lazarenko, the Ninth Circuit held that a conviction for
interstate transportation of fraudulent proceeds could not be
sustained in the absence of proof of "fraud;"
c) L'azarenko clearly showed that Petitioner's prior claims of
"ineffective assistance of counsel" were sustainable because
neither trial counsel nor appellate counsel moved for reversal of
the conviction on grounds that the Government failed to prove the
underlying fraud necessary to sustain a conviction for interstate
transportation of fraudulent proceeds, in violation of 18, U.S.C.,
§ 2314;" and
d) Uazarenko showed how Petitioner was prejudiced by denying him
a "record" of this criminal proceeding which would have clearly
demonstrated that trial counsel did not make a motion for a
judgment of acquittal under Rule 29> F.R.Crim.P., which would have
resulted in ''reversal of the interstate transportation of
fraudulent money conviction.
2) t’azarenko clearly showed that Petitioner was not only denied
"effective assistance of counsel at trial and on appeal," he was
denied the kind of "adversarial testing" of the Government’s case
as requiured by the United States Supreme Court in United States v.
Cronic, 466 U.S. 648, 656 (1984) which requires reversal per se
when counsel fails to provide the most rudimentary of defenses
required in a criminal proceeding.

12

Given the law and the facts in this case, it is abundantly
clear that the Petitioner was denied his constitutional right to a
fair trial. Why? Because the failure of counsel to move for an
"acquittal" once the jury acquitted him of the remaining "mail
fraud" charge is indefensible. Such a move would have immediately
exonerated the Petitioner. The Sixth Amendment to the United
States Constitution is very clear: "in all criminal prosecutions"
Here, the
the accused has a right to the assistance of counsel
accused,: the Petitioner, has cried out too long for justice and
been denied on minor technicalities. Now, it is front and center
that Petitioner's prior claims of "actual innocence" were, in fact,
valid. This fact came to light when the Court of Appeals rendered
its decision in Lazarenko, Id., at 1040. Clearly, Petitioner did
not steal or obtain by "fraud," the alleged $30,000 taken out of
state. He violated no law, state or federal, but he paid the price
of one guilty of such crime because neither his trial counsel, nor
his appellate counsel, provided him the kind of assistance of
counsel that the United States Constitution entitled him to have
received. The right of an accused to counsel is beyond question a
fundamental right. See, e.g., Gideon v. Wainright, 372 U.S. 335,
334, 9 l1.Ed.2d 799, 83 S.Ct. 792 (1963)("The right of one charged
with crime to counsel may not be deemed fundamental and essential
to fair trials in some countries, but it is in ours"). Without
counsel the right to a fair trial itself would be of little
consequence, see, e.g., United States v-_Cronic, 466 U.S. 648, 653,
80 L1 .Ed .2d 657, 104 S.Ct. 2039 (1984); United States v. Ash, 413
U.S. 300, 307-308, 37 L'.Ed.2d 619, 93 S.Ct. 2568 (1973);
Argersinger v. Hamlin, 407 U.S. 25, 31-32, 32 I1.Ed.2d 530, 92 S.Ct.
2006 (1972); Gideon, supra, at 343-345, 9 l1.Ed.2d 799, 83 S.Ct. 792
(1963); Johnson v. Zerbst, 304 U.S. 458. 462-63, 82 U.Ed. 1461
(1938); Powell v. Alabama, 287 U.S. 45, 68-69, 77 l1 .Ed. 158, 53
S.Ct. 55 (1932), for it is through counsel that the accused secures
his other rights. Maine v. Moulton, 474 U.S. 159, 168-170, 88
l1 .Ed .2d 481, 106 S.Ct. 477 (1985); Cronic, supra, at 653. 80
l1.Ed.2d 657, 104 S.Ct. 2039; see also, Schaefer, Federalism and
State Criminal Procedure, 70 Harv U.Rev. 1, 8 (1956)("Of all the
rights that an accused person has, the right to be represented by
13

counsel is by far the most pervasive, for it affects his ability to
assert any other rights he may have") . The constitutional
guarantee of counsel, however, "cannot be satisfied by the mere
formal appointment," Avery v. Alabama, 308 U.S. 444,. .446, 84 L1 .Ed.
377, 60 S-Ct- 321 (1940). "An accused is entitled to be assisted by
an attorney, whether retained or appointed, who plays the role
necessary to ensure that the trial is fair." Strickland v.
Washington, 466 U.S. 668, 685, 80 V.Ed.2d 674. 104 S-Ct. 2052
(1984). In other words, the right to counsel is the right to
effective assistance of counsel. Evitts v. Uucey, 469 U.S. 387,
395-396, 83 L'.Ed.2d 821, 105 S.Ct. 830 (1985); Strickland, supra,
at 686, 80 L'.Ed.2d 674, 104 S.Ct. 2052 (1984); Cronic, 466 U.S., at
654, 80 U .Ed.2d 657, 104 S.Ct. 2039, Cuyler v. Sullivan, 446 U.S.
335, 344, 64 U.Ed.2d 333, 100 S.Ct. 1708 (1980); McMann v.
Richardson, 397 U.S. 759, 771, n.14, 25 L'.Ed.2d 763, 90 S.Ct. 1441
(1970).
Because collateral review will frequently be the only means
through which an accused can effectuate the right to counsel,
restricting the litigation of some Sixth Amendment claims to trial
and direct review would seriously interfere with an accused's right
to effective representation. A layman will ordinarily be unable to
recognize counsel's errors and to evaluate counsel's professional
performance, cf. Powell v. Alabama, supra, at 69, 77 U.Ed. 158, 53
S.Ct. 55 (1932); consequently a criminal defendant will rarely know
that he has not been represented competently until after trial or
appeal, usually when he consults another lawyer about his case.
Indeed, an accused will often not realize that he has a meritorious
ineffectiveness claim until he begins collateral review proceedings
particularly if he retained trial counsel on.appeal.
Here, the Petitioner has been denied due process in his
ability to prosecute his claims of "ineffective assistance of
counsel" and "actual innocence." The courts below both acknowledge
the "lack of a record" of the District Court proceedings in this
case, yet both courts charge Petitioner with having had the tools
necessary to charge counsel with being "ineffective" and that he is
"actually innocent" of having transported $30,000 obtained by fraud
in interstate commerce, in violation of 18, U.S.C., § 2314- The
14

Government now acknowledges that Petitioner did. in fact, put forth
his "actual innocence" claim in his "initial" coram nobis petition.
The "lack of a record of this criminal proceeding" and the prior
refusal to acknowledge that Petitioner is "actually innocent" of
the crime "affected the integrity" of any prior decisions in either
the Section 2255 proceedings or the "initial" coram nobis petition
proceeding. Due process under the Fifth Amendment to the United
States Constitution demands that Petritioner be given at least one
hearing to fairly set forth his claims of "ineffective assistance
of counsel" and the fact that he is "actually innocent" of having
transported in interstate commerce $30,000, in violation of 18,
U.S.C., § 2314. The Court of Appeals decision in Lazarenko, supra,
at 1040, decided years after Petitioner filed his "initial" coram
nobis petition, is proof that Petitioner was not given the kind of
equitable consideration he was entitled to receive under^ he United
States Constitution in his prior collateral proceedings
CONCLUSION
For all of the abovementioned reasons this Honorable Court is
respectfully requested to Grant this Petition For Writ of
Certiorari to review the decision of the Court of Appeals.
Respectfully submitted,
■L'awrence' Do by Wilson
DATE:

April 10, 2021

1_ The Court of Appeals, in this case, should have considered the fact that its past "judicial
actions," in part, greatly contributed to the Petitioner's "delay" in filing his claims scorer: 1)
It threatened Petitioner with "sanctions" if he did not cease presenting his claims. See, Appendix
D, at page 2, 2) In its ’1994" decision denying 2255 relief, it alleged that he was convicted of
wire fraud, mail fraud, and transportirg fraudulently obtained money in interstate ccrmence when it
knew that the "fraud charges" were not sustained. See, Appendix "E," at page 1; and 3) it reversed
Lazarenko's section 2514 conviction because of the Government's failure to prove "fraud reoeipts,"
yet it denied Petitioner's "initial" ccram nobis petition based cn the same grands. Clearly, the
Petitioner has teen denied his constitutional right to fair, and equitable treatment as guaranteed by
U.S. Const, amend. V.

15

